COMPLIANCE
Under Rule 17, Procedure in an Original Action, invoking the Court’s original
jurisdiction under Article III of The Constitution of the United States, the count
words are 2164 of the 9000-word limit. I, Darrell-Wayne: Brown©, Sui Juris, the
above titled cause hereby verifies under penalty of perjury, under the laws of the
United States of America, without the “United States” (federal government). That
the above statement of facts and laws is true and correct and complete, according to
the best of my current information, knowledge, and belief, so help me God, pursuant
to 28 U.S.C. 1746 (1).

P
Darrell-Wayne: Brown©

